RIG
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021

filed
MAR 3 0 2021
I^REEM°Fpn{5£L-ERK
US.

NO.

EFRAIN LOPEZ,

PETITIONER

VS.
BOBBY LUMKIN, TDC-J DIRECTOR,

RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT, IN THAT'S COURT
NUMBER 19-20855

PETITION FOR WRIT OF CERTIORARI

Submitted By:

Efrain Lopez, #1953021
Wynne Unit, TDC-J CID
810 FM 2821
Huntsville, IX 77349

QUESTION(S) PRESENTED

1. Ih Petitioner's COA, Lopez challenged the U.S. District Court's adjudication
of his claims that: -(l) he is actually innocent; (2) he did not receive a
"live" evidentiary hearing before the State Habeas Court (nor federal); (3)
his speedy trial rights were violated (9 yeas plus months delay); (4) he
recei ed ineffective assistance of counsel; (5) the state withheld material
exculpatory evidence concerning a co-defendant's plea bargain; (6) his Due
Process rights were violated when witnesses for the state testified falsely.
Lopez also added a new claim to his COA that the state trial court abused
discretion in admitting certain picture evidence in violation of the Texas
rule of evidence.
The .question is, did the Fifth Circuit .err in denying Lopez's COA, especialy
with his speedy trial violation, when he has a Constitutional Right to:
Speedy Trial, Due Process, Right to Effective Counsel, Right to Evidentiary
Hearing, and the Right not to have false testimony used against him by the
State?
2. Petitioner Lopez was found guilty of Capital Murder by a jury based on
false testimony at trial; the question is can Lopez still make a Innocence
Claim and prove it with trial testimony offered by the victim of the Crime
that someone other than Lopez murdered his brother?
3. Has the Right to Speedy Trial been annuled nation wide? Which explains why
lower courts are now indifferent towards 6 & 14 Ammendment. Or is Lopez
nine years plus months a violation of speedy trial?*
4. Is it lawful for the state to lie - on purpose- to a jury of a co-defendant's
plea agreement?
5. Is it lawful for the state to use a perjured witness and false testimony
to support a conviction, knowlingly?
* See, Farmer v. McBride, 2004 U.S. Dist. LEXIS 29629 (S.D. W.Va 2004), writ
granted because of numerous Due Process errors.
** See, Miller-El v. Cockrell, 537 U.S. 322 (2003), COA does not require
petitioner to prove that he is entitled to relief.
+ Lopez is pro se and not a legal scholar, therefore he has been unable to
articulate a substantial showing of denial of speedy trial to this date.
Lopez has attached in support the legal Arguements of attorney Wendell A.
Odem Jr. for the right to speedy trial to use in this claim. See Appendix
(E).

LIST OF PARTIES
All parties do not appear in the caption of this case on the cover. A list of
all parties interested in this proceeding in court whose judgment is subject
of this petition is as listed below.
Efrain Lopez #1953021
Wynne Unit, TDC-J CID
810 FM 2821
Huntsville, TX 77349
(Petitioner)
Bobby Lumkin, TDC-J Director
P.O.Box 99
Huntsville, TX 77342
(Respondent)
Attorney General's OFfice of Texass
Mr. Craig William Cosper
P.O.Box 12548
Austin, TX 78711
(Respondent's Counsel)
U.S. Court of Appeals for The Fifth Circuit
Hon. Judge James L. Dennis
600 S. Maestri Place
New Orleans, LA 70130
U.S. District Court
Hon. Judge Andrew S. Hanen
P.O.Box 61010
Houston, TX 77208
The 179th Judicial District Court
Presiding Judge
1201 Franklin St.
Houston, TX 77002
Harris County D.A.'s Office
1201 Franklin St. #600
Houston, TX 77002

b

RELATED CASES
Banks v. Dnetke, 540 U.S. 668, 691, 124 S.Ct 1256 TFd?d 1166 (2004)
Barker v. Wiigo, 407 U.S. 513 (1972) ..............................................
Beady

.......... 2D, 22

2, 19, 12, 13
18

Earner v. McBride, 2004 U.S. Dist. LEXIS 29629 (S.D. W.Va 2004).
Gallcway v. United States, 319 U.S. 372, 392 63 S.Ct 1077 (1973)
Giglio v. United States, 405 U.S. 150 (1972) ...........................

22, 23

Miller-El v. Gockrell, 537 U.S. 322 (2003) ................................

a

Napue v. Illinois, 360 U.S. 264 (1959) ......................................
Speiser v. Randall, 357 U.S. 513, 520-521 (1958)
Strickland v. Vhshiqgton, 466 U.S. 688 (1984) ...........................

20, 22, 23

United States v. Dcgget, 112 S.Ct 2686 (1992) ...........................
United v. Marion, 404 U.S. 307 (1971) ......................................
United v. Seltzer, F.3d 1170 (CA 10 2010) ..................................

a, 25
7

14, 16, 18
2

2, 11, 14, 17
........ 10, 13

TABLE OF CONTENTS

Opinions Below

1

Jurisdiction .

1

Constitutional and Statutory Provisions Involved

f, 1, 2

Statement of The Case ..........................................

2

Reasons For Granting The Writ

5

Conclusions

25

c

INDEX TO APPENDICES
Appendix (A): U.S. Court of Appeals for The Fifth Circuit
-Denial of COA, Motion for Reconsideration & Peti. for Rehearing
-Pro Se COA
-Pro Se Motion for Reconsideration & Pet., for Rehearing
/

Appendix (B): §2254 Habeas Corpus
-Final Judgment of Denail
^Court's memorandum and order
-Pro Se §2254 habeas coprus & memorandum in support
A

Appendix (C): The Loma Vista (Cause No. 1305940/1428270) Docket reset forms
Appendix (D): D.A.'s Intake Management System (date of arrest)
Appendix (E): Attorney Wendell A. Odom Jr. arguements for the right to
speedy trial.
Appendix (F): August 29, 2014, Motion for Speedy Trial transcript
Appendix (G): Affidavits
-P.I. ROdriguez affidavit and interview wit Yeni Rivas
-Jessica Rivas affidavit
-Cecilia Calderon affidavit
Appendix (H): The Bunker Hill Case
-Motions to dismiss indictment for denial of speedy trial
-P.I. Reports
-Police Report
-Docket Reset Forms

App^dLix(xy. Vic+;i

Gu*<k*-Lof>e- Sepo(-\Je.JLc!$

d

a•

I I^OA.

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
Banks v. Drette, 540 U.S. 668, 691, 124, S.Ct 1256
.........20, 22
Barter v. Wii@>, 407 U.S. 513 (1972).....................
2, 10, 12, 13
Bastfjrth v. State, —,S.W.3d —,— 2013 WL 5633321 *2 (Tex. App. Thxarkana 2013)
10
Brown v. Rdmer, 441 F.3d 347 ((A 6 2006)..................................................................
7
Farmer v. McBride, 2004 U.S. Dist. LEXIS 29629 (S.D. W.Va 2004)...............................
a, 25
Fbeensn v. Class, 95 F.3d 639 (CA 8 19%)..................................................................
16
Gaikway v. United States, 319 U.S. 63 S.Ct. 1077 (1943)..........................................
7
GigLio v. United States, 405 U.S. 150 (1972).............................................................
,22, 23
Jnrdan v. tergett, 34 F.3d 310 (CA 5 1994)................................ ................................
15
teples v. Stegall, 427 F.3d 1020 (CA 6 2005).............................................................
10, 11, 13
Matherey v. Anderson, 253 F.3d 1025, 1039 (7th Cr. 2001)..........................................
8
Maxwell v. Roe, 628 F.3d 486 (CA 9 2010)...................................................................
23
Miller-El v. Cockrell, 537 U.S. 322 (2003) ...............................................................
a
Mjnoz v. State, 991 S.W.2d at 828 .............................................................................
13
Itepue v. IllinDis, 360 U.S. 264 (1959).......................................................................
20, 22, 23
Ortega v. Duncan, 333 F.3d 102 (CA 2 2003)................................................................
23
Ravel v. Hollin, 261 F33d 210 (CA 2 2001)..................................................................
15* 16
Hnilips v. OmoskL, 673 F.3d 1168 (CA 9 2012)............................................................
18, 20
R^pel v. City of San Diego, 149 F.3d 951 (CA 9 1998)...............................................
7
Qjartararo v. Hansimader, 28 F.Supp. 2d 749 (E.D.N.Y. 1998).....................................
7
Strickland v. teshirgtan, 466 U.S. 688 (1984) ..........................................................
14, 16, 18
Ttwnsand v. Sain, 372 U.S. 293, 312-313 (1963) ........................................................
8
United States v. Dcgget, 112 S.Ct 2686 (1992) ..........................................................
2
United States v. Hack, 162 F.3d 937, 942 n.l (7th Cir. 1998)....................................
8
United States v. fterion, 404 U.S. 307 (1971)............................................................. 2, 11, 14, 17
United States v. Seltzer, 595 F.3d 1170 (CA 10 2010)................................................ .......10, 13
U.S. v. Ford, 553 F.3d, 371, 375, 376, (CA 5 2009)...................................................
8
U.S. v. Lore, 26 F.SLpp.2 729 (D.N.J. 1998) .............................................................
15
U.S. v. McKimon, 995 F.Supp 1404 (M.D. Fla. 1998) ..................................................
15
U.S. v. Te gue, 953 F.2d 1525 (CA 11 1992)................................................................
15
U.S. v. WLUiais, 216 F.3d 611 (CA 7 2008)................................................................
8
Ventura v. Attorney General, FA. 419 F.3d 1269 (CA 11 2005)....................................
22, 23
Watkins v. Miller, 92 F.3.Supp. 2d 824 (S.D. Ini. 2000)............................................
,.... 8
Ycurg v. Drette, 356 F.3d 616 (5th Cir. 2004) ..........................................................
13, 14
Zamnnrano v. State, 84 S.W.3d 643, 655 (Tex. Crim. App. 2002)...................................
13
Zsdner v. U.S., 547, 489, 164, L.Ed 2d 749, 126 S.ct 1976 (2006) ........................... .
12, 13

e

Statutes And Rules

Page Number

U.S. Const., Amendment 6

...........1,9,10,11,12.13,14,11

U.S. Const., Amendment 8

................................... 10, 13

U.S. Const., Amendment 14

1,8,9,10,11,12,13,14,17,18,20

18 U.S.C. §3161...............

........................... ..........1, 12

28 U.S.C. §2253.(c)(2) ....

2

28 U.S.C. §1254b..............

2

28 U.S.C. §2254 ..............

2

S.Ct. Rule 19(c) ............

2

OTHER:
Texas Constitution, Sec.10

2

f

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner, Efrain Lopez, Pro Se, respectfully prays that a Writ of
Certiorari issue to review the judgment below.

OPINIONS BELOW
The Fifth Circuit of Appeals denied Petitioner's motion for a Certificate
of Appealability (seeking relief from a State Conviction), and further denied
Petitioner's motion for reconsideration and petition for rehearing en banc.
Petitioner does not understand if orders were published or not. Printed copies
of ORDERS can be found in Appendix (A).
JURISDICTION
The original opinion of the Fifth Circuit Court of Appeals was entered
December 22, 2020. A timely motion for reconsideration and petition for re­
hearing en banc were both denied on February 8, 2021. Petitioner received
notice of the last denial, from the cler's office via mail on February 22, 2021.
The jurisdiction of this Court is invoked under 28 §1254.
CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
• U.S. Constitution Amendment 6
In all criminal prosecutions, the accused shall enjoy the right to speedy
and public trial, by an impartial jury of the state $nd district wherein the
crime shall have been comitted, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation;
to be confronted with witnesses in his favor, and to have the assistance of
counsel for his defence.
• U.S. Constitution Amendment 14
Section 1. All persons bom or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No state shall make or enforce any law 'which shall abridge
the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process
of law; nor deny to any person, within its jurisdiction the equal protect ion
of the laws.
• 18 U.S.C. §3161
The Speedy Trial Act requires that a criminal trial must commence within
70 days of the latest of defendant's indictment, information, or appearance,
barring periods of excludedable delay.

1

• 28 U.S.C. §2253(c)(2)
At the COA stage of a habeas proceeding, the only question is whether the
applicant has shown that jurist of reason could disagree with the district
court's resolution:of his constitutional claims or that jurist could conclude
the issues presented are adequate to deserve encouragement to proceed further,
this threshold question should be decided without full consideration of the
factual or legal bases adduced in support of the claims.
That a prisoner has failed to make the ultimate showing, at COA stage of
a habeas proceeding, that his claim is meritorious does not logically mean he
failed to make a preliminary showing that his claim was debatable, as required
for a COA; thus, when a reviewing court inverts the statutory order of operations
and first decides the merit of an appeal, then justifies it's denial of a COA
based on it's adjucation of the actual merits, it has placed too heavy a burden
on the prisoner at the COA stage.
• 28 U.S.C. §t254
(a) The Supreme Court, a,Justice thereof, a cicruit judge, or a district
court shall entertain an application for writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a state court only on the ground
that he is in custody in violation of the Constitution or laws or treaties of
the United States. (d)(a) [Djecision that was contrary to, or involved an un­
reasonable application of, clearly established Federal Law, as determined by
the Supreme Court of the United States; or (2) resulted in a decision that was
based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.
• S.ct. Rule 10(c)
Under this rule, this Honorable Court Certiorari should be granted, atleast
Petitioner's claim of violation of speedy trial, because the lower courts have
decidedcan important question of federal law that has not been, bu»t should be
settled by this COurt, and have deceided an important Federal question in a way
that conflicts or annules the relevant decesion of this Court in Barker v. Wingo,
United States v. Doggett, and United States v. Marion.
OTHER
• Constitution of Texas, section 10; right to a speedy and public trial.
STATEMENT OF THE CASE
On September 12, 2005, during a home invasion and robbery, victim Guadalupe
Sepulveda was shot with a firearm and survived, the second victim Daniel Zammora

2

died of his gunshot (shotgun) wounds. Drugs, money, a cell phone, and guns where
taken from the drug dealer(s) home. State records show that an "unknown person"
was assualted here aswell. The State titled this case, THE LOMA VISTA CASE
(henceforth known as in this Writ).
Offense Report on page 2.026, shows that on October 10, 2005, Petitioner
Efrain Lopez (henceforth known as Lopez) was arrested through an Arrest Warrant
based on testimony from a cordefendant Alejandro Garcia (who was communicating
with state detectives). Lopez denied all allegation in the interrogation room
and was released from custody. From here on forth, Lopez remained the State's
primary suspect in Daniel Zammora's death.
On December 16, 2005 (on or about) Lopez was arrested for, Aggravated
Assault that occured the night of the Loma Vista home invasion and death of
Daniel Zammora- "The unknown person assualted". Detectives executed the Arrest
Warrant and Search & Seizure Warrant at Lopez childhood home. Detectives were
searching for evidence that could incriminate Lopez to the Loma Vista Murder.
Both the Arrest Warrant and Search Seizure Warrant where based of testimony
from co-defendant Alejandro Garcia.
Also on 12-16-05, Detectives interrogated Lopez for an un-related crime
the State titled "THE BUNKER HILL CASE" (henceforth known as)(See Appendix H).
In the Bunker Hill Case Lopez was considered an accomplice. After two
interrogations, one for Loma Vista and one for Bunker Hill, Lopez never confessed
to murder nor assualt.
The State, according to the Offense Report, prefered to prosecute the
Bunker Hill case because the State's opinion was it was the strongest case'.' '
The State deemed the Loma Vista case weak. Victim Guadalupe Sepulveda's
testimony described someone other than Lopez as the murderer of his brother
Daniel Zanmora. No evidence, other than Alejandro Garcia's testimony linked
Lopez to the Loma Vista murder.
Lopez was indicted for the Bunker Hill murder on March 2, 2006. The evidence
presented to the court appointed attorney where overwhelming. Several people
* Lopez has provided the Court with copies of this case for review, in support
of Lopez speedy trial claim.
** As far as Lopez knows, no one was ever convicted on this case.

3

were accusing Lopez as part of this crime. In 2008, Lopez's relatives invested
in attorney Mr. Gerald Fry. After speaking with Lopez and hearing Lopez version
of events. Mr. Fry advised Lopez relatives to retain Private Investigators to
prove that Lopez was in the right. Two agencies investigated Lopez's case. The
P.I.'s returned with exculpatory evidence that shocked Mr. Fry. Every witness
for the Bunker Hill case told the P.I.'s that they were forced by the State to
sign statements against Lopez and others; furthermore,' some witnesses turned
out to be fictional names of people who did not exist. Mr. Fry presented the
newly squired evidence to the State sometime in late 2008 or early 2009. The
then prosecutor left the the D.A. 's Office and the State chose to neglect
the Bunker Hill indictment. This was the begining of the State's bad faith.
Furthermore, politicle problems at the-D.A.'s Office transpired through the
years. The indictment sat in Court, withno one willing to prosecute it. Like
a competent attorney, Mr. Fry filed to dismiss the Bunker Hill indictment for
denial of speedy trial and a second motion to simply dismiss for denial of
speedy trial (See Appendix H). The case was eventualy dismissed a decade later.
Sometime around or before 2010, a new prosecutor ventured to prosecute
Lopez. Prosecutor Spence Graham, with Mr. Fry present, informed Lopez that he
was still the suspect for the Loma Vista murder; that Alejandro Garcia still
accused him for murder. Mr. Graham offered once on that day and never again
a sealed deal to Lopez, become a state witness and in exchange Lopez will not
be prosecuted for the Loma Vista Murder, and will receive a reduction of
charges plus a good deal. That Lopez was still young and smart, that is why he
was offering this plea deal. It was Lopez opinion that Mr. Graham was being
deceitful, therefore, Lopez refused the plea deal.
On May 11, 2011, Lopez was indicted .for Capital Murder for the murder of
Daniel Zammora (Loma Vista Case). Lopez relatives could not afford to retain a
second attorney. Therefore, the court appointed Mr. Joseph Salhab to represent
Lopez. Once again, more politicle problems at the D.A.'s Office. Mr. Graham
quits and entered into private practice; and according to.Mr. Salhab, the
State was still investigating the Loma Vista Case.
As the time passed, Mr. Fry lectured Lopez on how to assert his speedy
trial right for Loma Vista indictment. Lopez was told to recopy the motions
to dismiss for denial of speedy trial (the ones Fry filed - See Appendix H)
and file them pro se with the Loma Vista Cause Number. Lopez did as instructed.
Attorney Salhab adopted the pro se motions to dissmiss for denial of speedy
trial.
On August 29, 2014, the Court heard the Motion to Dismiss for Denial
of Speedy Trial. The Court weight in favor of the State and denied the Motion.

4

In September 2014, a trial was held for the Loma Vista Case. A jury found
Lopez guilty as charged.
Lopez, through a court appointed attorney appealed. The Direct Appeal
argued Lopez's speedy trial rights and using a picture - that was not found
on Lopez - as evidence when picture had: no connection/relation to the Loma
Vista Case. The Appeal was; denied,. The Appellate Court's opinion, was that
there was no speedy trial violation because Lopez signed Docket reset forms.
Appellate Court Appointed attorney filed a PDR and the Court refused to
hear the PDR with a general denial white card.
Lopez filed a Writ Certiorari with this Honorable Court seeking certiorari
for the PDR and Direct Appeal. This Court denied the petition for writ cert.,
with a general denial. A timely filed motion for rehearing was filed and that
was denied as well.
Petitioner challanged his conviction with a §11.07 Habeas Corpus. The
Court of Criminal Appeals of Texas adopted tWe State's/Court fact finding
conlcusion denying Lopez's §11.07.
Lopez proceeded with a §2254 Habeas Corpus claiming: actual innocence,
Speedy trial with due process violations, I.A.C., and a Brady violation. The
U.S. District Court denied Lopez's §2254.
The Petitioner then appealed the U.S. District's opinion at the Fifth
Circuit seeking COA. The Fifth Circuit ruled that no reasonable iurist would
debate/argue Lopez innocence claim, his speedy trial with due process claim,
and other claims. Lopez filed a timely motion for reconsideration and petition
for rehearing en banc. Both were denied by the Court.
Petitioner Lopez now brings his burden to this Court seeking a certiorari
and liberal scrutiney for his pro seepatition,,asking the Court to review his
claims and grant a Writ of Certiorari.
REASONS FOR GRANTING THE PETITION
Cl) ACTUAL INNOCENCE CLAIM
In the Loma Vista Case, there are two victims; Guadalupe Sepulveda (still
alive) and DanielZammora (deceased). Victim Guadalupe Sepulveda is an eyewitness
to the facts that occured the night of the Loma Vista Murder.
Guadalupe Sepulveda testified in Lopez's trial that he witnessed a: 5'9
foot tall man with a shotgun (RR7-21), whomeha calculated to be a 23 year old
(RR7-23). Sepulveda also testified to the color of the shotgun he witnessed:
"Color offthe military uniform',' (RR7-45, line 3-8; RR7-48, line 8-12).
Setflx'uda it

5

Sepulveda is referring to a camofluague color? Eyewitness Guadalupe Sepulveda
also took a look at Lopez during trial - and after nearly a decade later - knew
Lopez was not the shotgun wielding man he said murdered his brother Daniel
Zammora. The State knew of Sepulveda's identification of the shooter. Which is
why the State never asked him to point at the suspect?" (■$*«- App^ck", x X ^
Petitioner Efrain Lopez in 2005 anddup to today is: 5'4 feet tall, on
1 9-12-05 (the night of the murder) Lopes was 17 years old, a senior in high
school. No shotgun nor shotgun bullets was ever found with Lopez. Neither, were
stolen items from Sepulveda found with Lopez during search & seizure. In trial
Sepulveda testified and pointed to what was stolen from his home:;cell phone,
drugs, $1,000-2,000 (or less) of drug money, and guns.'.;
State-witness and co-defendant Alejandro Garcia testified that Lopez
murdered Daniel Zammora with a black shotgun. However, there are a few things
to consider with Alejandro Garcias testimony:
• Alejandro committed perjury on this Case.PErom October to December
2005,
2005, Alejandro accused 3 people of murdering Daniel Zammora. On
three seperate notarized Affidavits, he accused: Jose Luvianq, then
a George Lopez, and finally Efrain Lopez (petitioner). Detectives
cleared the names of the first two suspects. They knew Alejandro
vj was lieing to them but allowed him to make a third affidavit against all odds - accusing Petitioner.
• When Alejandro was arrested, Detectives found with him: shotgun
bullets, several firearms including an assualt rifle with their
bullets, and stolen items belong to Sepulvedaf plus Drugs.
• Guadalupe Sepelveda's cell phone records for the stolen phone
..revealed that Alejandro Garcia was using to call & text his
girlfriend dnd his home. It as was through this stolen cellphone
records that Detectives found Alejandro first.
Second state-witness, Yeni Rivas, testified that Lopez told her that he
was part of the crime that occured at Loma Vista. However, this is not true,
Lopez never spoke to her about any crimes, for that matter. Lopez will prove
to this Court that Yeni Rivas lied in trial later on in this Writ.___________
* Lopez is unable to remember accuratley, but he does recall from a 2014 picture
his attorney hshowed him, that a camofluague shotgun was found by detectives
either with Alejandro Garcia or Juan Balderas.(said picture is a State picture).
Lopez notified his attorney of the camo-shotgun but attorney failed to point
this out. The State did not exhibit a confiscated shotgun nor alleged murder
weapon.
** The State asked other state-witnesses to point at Lopez as the suspect.

6

Testimony Chart
Guadalupe Sepulveda
Murderer: ??
height: 5'9
age: 23
weapon: camo shotgun
App«.ndL\y CX} .

Efrain Lopez
Confessed to
murder? "No"
height: 5'4
age:
17
owned a shotgun?
"No".

Alejandro Garcia
Murderer: Efrain Lopez
height: 5'4
agd 12
weapon: black shotgun.
Alejandro Garcia
height 515
age:16
owned a shotgun: yes

Does Guadalupe Sepulveda's eyewitness testimony and victim of the crime
have any value or wieght or importance to support some type of innocence claim
for Lopez, with reasonable jurist? Sepulveda's testimony is exculpatory for
Lopez's claim that he did not murder Daniel Zammora. No solid evidence was offered
by the State except Alejandro Garcia and Yeni Rivas verbal testimony (one is a
perjurer and acfalse.witnessiand the:.second one is also a false witness). The
State did not bring forth finger prints, no weapon, etc.
So What happened, why did the jury vote guilty as charged? When there is
innsufficient evidence to support a murder charge? The jury was irrational and
ignored Sepulveda's testimony. The jury relied heavily on Alejandro Garcia and
Yeni Rivas testimony, drawing speculationnfrom their testimony for their choice
of vote. However, speculation is not proof beyond a reasonable doubt. Brown v.
Palmer. 441 F.3d 347 (CA 6 2006) see page 350, 352, 353 of Brown; ;Poppell v.
City of San Diego. 149 F.3d 951 (CA 9 1998) the jury must draw reasonable
inference and not speculate. See Galloway v. United States, 319 U.S. 372, 395,
63 S.Ct 1077, 87 L.Ed 1458 (1943).
To wrap things up, Alejandro Garcia committed perjury before on (matters
to this case and his testimony against Lopez does not match victim's testimony;
therefore, a reasonable jurist will infer that he is committing perjury again
for the third time by falsely accusing Lopez of murdering Zammora; and because
Yeni Rivas admitts to lieing in trial (Petitioner will show this later in the
Writ) a reasonable jurist would agree that she is lieing. To close this up,
a reasonable jurist would then rely heavily on Guadalupe Sepulveda's testimony
and agree that Lopez did not murder Daniel Zammora. It is commen sense to
believe the words of a victim than a co-defendant, and it is for this reason
that a jurist of reason would not had found Lopezyguilty of Capital Murder.
Because, all of the evidence presented was false or circumstantial and Sepulveda's
testimony is esculpatory; there is nocother conlcusion that any rational jury
could have reached based on the State's evidence presented. See Quartaro v.
Hansimaier, 28 F. Supp. 2d 749 (E.D.N.Y. 1998); in Quartararo, the Court spoke
of evidence insufficient of phsical evidence.
7

According to victim Guadalupe Sepulveda, Petitioner Lopez is not the
murderer of his brother Daniel Zammora. U.S. v.::Ford, 558 F.3d 371, 375, 376,
CCA 5 2009); and because Lopez cannot be the murderer according to Sepulveda
that means Alejandro Garcia's testimony is "phsically impossible for the
witness to observe that which he claims occured, or impossible under the laws
of nature for the occurance to have taken place at all." See U.syWilliams,
216 F.3d 611 (CA 7 2000) and United States v. Hack, 162 F.3d 937, 942 n.l
(7th Cir. 1998). Se«_
(X> .
Wherefore, the Court should grant a Certiorari.
(2) DENIAL OF LIVE EVIDENTIARY HEARING
The need for a live hearing is governed by the 14 Ammendment; Townsend v.
Sain, 372 U.S. 293, 312-313 (1963); Matheney v. Anderson, 254 F.3d 1025, 1039
(7th Cir. 2001); and Watkins v. Miller. 92 F. Supp.2d 824 (S.D. Ind. 2000).
Lopez has available three sets of unseen evidence that any reasonable jurist
would be interested in reviewing; or better yet said, "he has facts, if proved,
would entitle him to relief." Matheney.
One of these "alleged facts" and unseen evidence is a: Affidavit plus
transcript of an interview, between Private Investigator Richard Rodriguez and
state-witness Yeni Rivas conducted in 2008. In this interview, Yeni Rivas
confesses to Mr. Rodriguez: l) that she knows nothing about the Loma Vista Case;
2) Efrain Lopez never spoke to her about the Loma Vista Case; 3) that the State'
coerced her to sign false statements against Lopez or have her baby taken
away from her for not cooperating with the State; ;;nd 4) the state threaten
her once while pregnant with a tazer to sign a statement; add 5) that she is
mad at Lopez. (See Appendix G for this transcript).
Attorney Salhab had this piece'of evidence available long before the trial
started but failed to make use of it at trial. Effective counsel would had
used this interview (ajdio tape and/or transcript) to discredit Yeni Rivas
trial testimony, even go as far has make her confesstto the truth - that she
is being coerced by the State to lie on Lopez.
No reasonable jury, after hearing and reading this interview would have
given any value to Rivas testimony that Lopez told her that he was at the
scene of the crime, and mostidefinitly no reasonable jury would have voted
guilty of capital murder.
The second piece of "alleged facts" and newly aquired evidence is a Affidavit
from Jessica Rivas. She is Yeni Rivas sister. After Lopez trial, Jessica asked
Yeni did Lopez speak to you about the murder? Yeni answered her sister that

8

Lopez never spoke to her about the Loma Vista murder and Yeni further confessed
to Jessica that she lied in Lopez's trial. Upon hearing Yeni's confession,
Jessica reached out to Lopez in prison and provided him with the said Affidavit.
A reisonable jury would be interested in reviewing this testimony in a live
evidentiary hearing because it supports Lopez's claim that Yeni Rivas lied,
adds weight to his innocence, and supports Lopez claim that the State is
performing misconduct and showing bad faith. (Jessica Rivas Affidavit can be
found in Appendix G).
The third piece of evidence available to Lopez is an Affidavit from
Cecilia Calderon. Mrs. Calderon gives testimony to Yeni Rivas un-ethical
conduct of being a lier and untrustworthy. (See Appendix; G).
Tangent and in theory, in:a live evidentiary hearing Lopez would be given
a court appointed attorney. While under representation, Lopez would inform
counsel of others who would come foreward and help support his burder of
innocence. Counsel would then motion for a private investigator to find and
interview: Israel Diaz (third co-defendant for the Loma Vista case] on parole
for Agg. Robbery), Judy De La Fuente (high school friend) and Daniela Chavez
(high school), and Alejandro Garcia's girlfriend? On the day of the live
evidentiary hearing counsel would present all of the esculpatory evidence
available.
Therefore, reasonable jurist would agree that Loppz does need a live
evidentiary hearing.
Wherefore, the court should grant certiorari.
3;) VIOLATION OF STATE AND FEDERAL SPEEDY TRIAL & Due Process
The right to speedy trial and due process is governed by the 6th and 14th
Amendment, and the Speedy Trial Act.
Has the Constitutional Right to Speedy Trial & Due Process been annoled?
If so, when was it annuled? If not, what must a petitioner show to raise a
* Lopez does not knew where these witnesses are today.
** Lopez does not remember her name, she attended a different school, her name
can be found in Garcia's offense reports. This is girlfriend Alejandro Garcia
called and texted with Guadalupe's stolen cell phone.

9

speedy trial claim? Because Lopez has raised this claim several time in the
lower courts and those courts, with deliberate indifference, deny his 6th &
l14<th amendment right, that protect him from oppressive - cruel & unusual (8th
Ammend.) pre-trial incarceration.
Barker Factors: The Courts "analyze federal constitutional speedy trial
claims 'on an hoc basis' by weighting and then balancing four factors: l) Length
of Delay, 2) Reason for Delay, 3) Assertion of Right, 4) Prejudice to The
Accused.".Barker v. Wingo, 407 U.S. 514 (1972).
length of Delay Factor: The more bad faith or negligence on part of the
State, "the less a defednaiit must show actual prejudice or prove diligence in
asserting his right to speedy trial." Barker. Texas Courts have found that a
twenty three month delay triggers a Barker analysis. Bosworth v State, —
S.W.3 —,—, 2013 WL 5633321, *2 (Tex. App.-Texarkana 2013). Federal Courts
have found that a two year delay violates speedy trial act. U.S. v. Seltzer,
595 F.3d 1170 (CA 10 2010); and that twentfive month delay violates speedy trial.
Maples v. Stegall, 427 F.3d 1020 (CA 6 2005jf
Here, in Lopez's case, Lopez was arrested for the Loma Vista case, twice,
in 2005; once in October and the second time in December. He remained the
"pacused" while incarcerated at the jail. After arrest, the State chose to neglect
the Loma Vista Case and prosecute the Bunker Hill Case. Attorney Gerald Fry,
retained for Bunker Hill, cleared Lopez name in the Bunker Hill case. The State
then leaves Lopez in limbo-perjutory situation. Neglecting two cases at the
very same time. Not wanting to prosecute the Bunker Hill case because of Mr. Fry;
not wanting Lopez to bond because he is a "accused" in Loma Vista; and not
wanting to prosecute Loma Vista because the case is weak.
Sometime, before 201.1, the state prosecutor Mr. Graham, attempting to
prosecute (get a conviction) Lopez, gives Lopez an ultimatume— become a state
witness or face prosecution for the Loma Vista murder because Lopez is the prime
suspect in Daniel Zammora's murder. Mr. Graham informs Lopez that Alejandro
Garcia will testify against him. Mr. Graham, Mr. Fry and Lopez spoke once
about this ultimatume, and never again do they talk with each other.
* Case Dismissed.
** Writ Granted.
+ Appendix H contains the Bunker Hill Case.

10

]

Lopez does not accept Mr. Graham's State plea bargain of becoming a State witness,
reduction of charges, no prosecution for Loma Vista, and a reduction of sentence.
Regardless of when Lopez was indicted for Loma Vista, he was still:arrested,
interrogated, home searched & seizure (with warrants) and incarcerated for Loma
Vista in 2005.ITherefore, Lopez "length of delay is measured from the date, .of
indictment or the date of the arrest, which ever is earlier. U.S. v. Marion,
404 U.S. 307, 313, (1971)',' -quoted from Maples v. Stegall, 427 F.3d 1020 (CA 6
2005). In Marion, the court said, "the right to a speedy trial attaches when
an individual becomes 'accused' in a prosecution by the state." Even though
lopez was finally indicted for Loma Vista on May 11, 2011, a literal interpretation
of Marion and Maples, Lopez was an'accused' and 'arrested' for Loma Vista in
2005. This means thattthere is a 9 years plus months Delay.
In the alternative opinion, that annules the,6th & 14th Ammendmen plus
Speedy Trial Acts and above case laws; the lower courts have reasoned that Lopez
speedy trial clock started in 2011. Well, that is still a four year delay and
unconstitutional according to the statutory cited above. Then, the U.S. District
Court wrote that there is only one year delay. Clearly in the wrong. Nevertheless,
there is a problem with these opinions of the lower courts. Prosecutor Mr. Graham
spoke to Lopez before 2011, notifying him that he was the prime suspect for the
Loma Vista murder; but it can all go awayiif Lopez cooperates with the State.
Therefore, in logic, Mr. Graham is legaly saying that Lopez was an 'accused'
before 2011 indictment. Regardless, Marion and Maples is the correct interpretation.
Lopez has 9 years plus months of delay. Now that the length of delay is
properly established, we can proceed to the next factor.
Assertion of the Right to Speedy Trial: While Lopez was under indictment
for the Bunker Hill case, attorney Mr. Fry asserted his rights with Motions
to dismiss for denial of speedy trial (See Appendix H). However, how could Lopez
make an assertion as an 'accused' without indictment for the Loma Vista Case in
2006, 2008, 2009, or when Prosecutor Mr. Graham gave Lopez an ultimatume of
cooperate with the state or face prosecution for Loma Vista? The current way the
law works, Lopez could not.(lhis is a landmark issue not seen in Court.that
needs landmark remedy). For nearly a decade Lopez handles two cases, one officially
and another*® unofficialy but became official for not becoming a state witness.
Upon indictment for the Loma Vista Case, Lopez relied on his counsel Mr.
Salhab to defend him and protect his rights. Lopez presumed Mr. Salhab would
perform like Mr. Fry. However, Mr. Salhab was ineffective. It was Mr. Fry who
taught Lopez how to assert his right to speedy trial by instructing him to recopy the motions to dismiss for denial of speedy trial, place the Loma Vista

11

Cause number and dates, and file it pro se. Lopez did as instructed. Mr. Salhab
then adopted Lopez's motions. Thus, Lopez asserted his right to speed trial.
The lower court have brought forth an uncostitutional opinion that, once
again annules the established defenition of speedy trial; that Lopez:.,waived his
speedy trial rights apd waived his assertion by signing Docket Reset Forms. The
lower court have also ruled that by signing these Docket Reset Forms, it stops
the speedy trial clock. However, this is far from the Constitution, the Docket
Reset Forms are for the Court's Clerk to use when typing into the system the
next court date, and for all parties to know the next court date. The Docket
Reset Forms are not "Waiver Of Rights" nor do they read waiver of rights, but
"Agree Reset". Meaning not that the defense agreed to have the case reset for
another time but it is agreed that all parties know the next court date assigned
by the Court Clerk. To continue allowing the State to uphold the opinion that
Looez waived his speedy trial rights, it wi11 continue to annuli the 6th & 14th
Amendment Right, SpeedylTrial Act, and Speedy Trial Case laws. Setting forth
a new standard of law that any State can keep a defendant in jail for as long
as they want, as long as the defendants keep siging the Docket Reset Forms,
without it ever becoming a speedy trial issue. But, if in some fantasy land,
the signing of Docket Reset Forms are waivers of rights, then Lopez would like
to bring up , Zedner v. U.S., 547, 489, 156, L.Ed 2d 749, 126 S.ct 1976 (2006).
In summary, Zedner speaks of the speedy trial act regulates the time speedy
trial begins. Section 3161(H) specifies in detail numerous catagories of delay
that are not counted in applying the Act's deadline. Instead of simply allowing
the defendant to opt out of the Act, the Act demands that defense continuances
request fit within one of the specific exclusions set outiin subsection (h).
See page 1985. For this reason, \the higher Court rejected the District Court's
reliance on §3162(a) (2) and concluded:-a defendant may not prospectively waive
the application of the Act. It follows that petitioner's waiver "for all time"
was ineffective. See page 1987. The Court ordered, the sanction for violating
the Act is a dismissal, but they left it up to the District Court to determine...
whether dismissal should be with or without prejudice. See ~age 1990. Therefore,
hare in Lopez's case, to gay that he waived his speedy trial rights by signing
Docket Reset Forms is ineffective and violation of the Act because Lopez can
not prospectively waive the application of the Act.
Plus according to Barker, the more bad faith or negligence on part of the
State "the less a defendant must...prove diligence in asserting his right to
speedy trial." Id at 280-281.
Ti.erc

12

Therefore, for this factor, it is clear that Lopez did assert his right
to speedy trial in both the Loma Vista Case and Bunker Hill case.
Prejudice To The Defendant: The near long decade of pre-trial incarceration
was oppressive, Munoz v. State, 991 S.W.2d at 828: it was also a form of state
imposed "cruel and unusual punishment" (8th Amend.). Lopez spent almost a decade
behind bars while presumed innocent until proven guilty, ( 2005 [ one month ],
2006, 2007, 2008, 2009, 2010, 2011, 2012, 2013, 2014);.Plus, according to Barker,
the longer the negligence or bad faith by the state '/the less a defendant has
to show prejudice." Id at 280-281. Nevertheless, the prejudice also lies in
all those years of oppressive,ccruel, unusual punishment, of pre-trial
incarceration.
Therefore, this factor weights in favor of Lopez.
Balancing The Factors: The weightssof the factors are balanced in light of
"the conduct of both the prosecution and the defendant." Barker at 530. The
factors are interrelated and must be considered together, along with other
re1evant circumstances. Id at 533.
Here, in Lopez's case, it is the Petitioner's opinion that the State was
in the wrong, showing bad faith and negliegance. First by trying to lie and
frame a case with Bunker Hill by using false evidence to which Mr Fry discovered;
and second, for doing the same things in Loma Vista which Mr. Salhab was not
able to prove. Plus, the State has the burden to prosecut not the defense.
Furthermore, all factors weight heavily in favor of Lopez. With the famous
words of the late Justice^-Ruth Ginsburg "a literal interpretation of the
Constitution" , reveals that Lopez's 6th & 14th Ammendment Rights were violated
by the Lower Courts.
Therefore, according to, Zamorano v. State, 84 S.W.3d:643, 655 (Tex. Crim.
App. 2002); U.S, v. Seltzer, 595 F.3d 1170 (CA 10 2010); Maples v. Stegall, 427
F.3d 1020 (CA 6 2005) and Zedner v. U.S. 547. 489, 156, L.Ed 2d, 749, 126 S.ct
1976 (2006), Lopez case is to be dismissed. To support the dismissas even more,
Lopez brings, Young v. Dretke, 356 F.3d 616 (5th Cir. 2004). In Young, the
Fifth Circuit ruled that effect counsel;would have moved to dismiss the untimely
indictment on State law grounds and the State Court would have been required to
dismiss the prosecution with prejudice. On August 29, 2014, the State Court
heard Lopez's motion to dismiss indictment for denial of speedy trial. After
analyzing the Barker factors, in favor of the State, the State Court denied
the motion. The State Court was wrong to deny the dismissal because it is clear
that the factors weight in favor of the Petitioner, and because according to

13

the Fifth Circuit, the State Court had to dismiss the prosecution with prejudice.
The end result was, and reasonable jurist would aregue this, th&t Lopez
suffered prejudice by not receiving a dismissal becuase it resulted in Lopez
being found guilty for a murder he did not committc
This Supreme Court can can find the trascript for the August 29, 2014,
motion to dismiss hearing in Appendix (F) for a De Novo Review. Note to Court:
Mr. Graham!s words that he wanted to ^hammer and pound" Lopez are references to
the time he spoke to Lopez about accepting a plea deal or face prosecution for
loma Vista. This occured before 2011.
Petitioner Lopez respectfully asks this honorable Court to allow the
incorporation of attorney Wendell A. Odom Jr.'s arguements for speedy trial,
and the dangerous precedence it will set forth if Lopez right is denied, for
the purpose of supporting this claim. Mr Odom Jr.'s work can be found in
Appendix E.
The Court can find the Loma Vista Docket Reset Forms in Appendix D and
Bunker Hill Docket Reset Forms in Appendix H.
Wherefore, the Court should grantta certiorari.
|4) INEFFECTIVE ASSISTANCE OF COUNSEL
Ineffective Assistance of Counsel is governed by the 6th and 14th Amendment,
and Strickland v. Washington, 466 U.S. 688 (1984). Here, Lopez's case Lopez
will show that Attorney Joseph Salhab performed outside the bounds of competent
representation.
First I.A.C.: In 2011, attorney Joseph Salhab was appointed by the Court
to represent Lopez in the Loma Vista Indictment. KNowing full well that there
was a speedy trial violation, Mr. Salhab should had imedately.challenged the
indictment, "and moved to dismiss the untimely indictment on state law grounds."
See Young v. Dretke, 356 F.3d 616 (5th Girl 2004) as soon as he was appointed.
The indictment was untimely because of the speedy trial clock. See Marion.
Second I.A.C: During trial, Lopez wanted to testify on his behalf. However,
Mr. Salhab was of the opinion that Lopez should not testify. Mr. Salhab's tactic
was for Lopez not to testify because the victim of the crime does not accuse
Lopez of murder. That, the .'juty. would rely on the victim's testimony for aquital.
Also, Mr. Salhab worried that if Lopez testified then the State would question
him on the Bunker Hill case. Mr. Salhab did not want the jury to hear about
the first indictment.
Lopez wanted to testify, he wanted to asnwere - infrontof the jury - the
question, did you Lopez murder Daniel Zammora? Lopez would have answered: "No,
I did not murder Daniel Zammora."

14

The fact that Lopez was found guilty for the murder of Daniel Zammora
show's that Mr. Salhab was wrong to assume the jury would rely on the victim's
testimony for aquittal. The jury ignored the victim's testimony. Trial tactics
did not work. See U.S. v. Teague. 953 F.2d 1525 (CA 11 1992); U.S. v. Lore, 26
F. Supp.2 729 (D.N.J. 1998)' Jordan v„ Hargett, 34 F.3' 310 (CA 5 1994); U.S.,
v. Mckinnon, 995 F. Supp. 1404 (M.D. Fla. 1998).
Furthermore, Lopez needed to testify to answere another question, Did
you Lopez speak to Yeni Rivas of you involvments in the Loma Vista Case? Lopez
would had answered: "No, I never spoke to her about the Loma Vista case. She
is lieing and holding a grudge because I do not want to have a relationship
with her."
The last serious questions that Lopez needed to answere were, Did the
money ($14,000 or so)and hand gun found in your room come from the;-Loma Vista
robbery? Lopez would had answered: "No, I was in a car reck with a 18-wheeler
and received a settlement. With some of the settlement money I purchased a
used car and a handgun from a vendor. I then sold the car. The money found in
my room was a mixture of settlement,-money, car sell money and several savings.
Lopez is the only person who could contradict A1 ejandro Garcia, Yeni
Rivas, and the States theory that the money and gun found in Lopez's childhood
room came from Loma Vista." Without Lopez's testimony to contradict the state's
falsetestimony and false theory, the“jury by default way of thinking, relied on
Alejandro Garcia and Yeni plus the State's theory for their decision making. A
better trial strategy would have been for Lopez to testify. Reasonable Juries
always want to hear what the accused has to say; and after hearing Lopez
testimony there is the possibility they would had not found Lopez guilty of
murder. It is commentsence, in the eyes of juries, for the innocent to testify
for their defense while the guilty remain quiet. Therefore, Mr. Salhab's decision
of not allowing Lopez to testify was not tactical. Pavel v. Hollins, 261 F.3d
210 (CA 2 2001).
If it was true that Mr. Salhab worried that the State would question Lopez
on the Bunker Hill case, then trial attorney would motion to lamin, motion to
* Victim Guadalupe Sepulveda never identified anything from Lopez room as his
property. Plus, Sepulveda testified that $1,000-$2000.oo of drug money was
stolen (refering to old bills). The money in Lopez's room was still new as
it came from a bank.

15

Deus, and "Object" to the State questioning of the Bunker Hill case during
the Loma Vista trial.
Third I.A.C.: Attorney Gerald Fry in 2008 investigated Lopez's case and
accusations. Mr. Fry first had the 2008 interview between Mr. Rodriguez and
state-witness Yeni Rivas.MMr. Fry shared this interview with Mr. Salhab to
use and help Lopez in trial.
In this interview conducted in 2008, state witness Yeni Rivas confesses
to P.I.,Rodriguez that: l) she is being coerced by the State to give testimony
against Lopez; 2) Lopez never spoke to her about the Loma Vista case; 3) If
she does not cooperate with!the state, the state threatened to take away her
son; 4) that she is mad at Lopez.
To everyones suprise, Mr. Salhab failed to have this piece of evidence
available for trial, nor did he try to introduce i-t as evidence. He even failed
to subpeona Mr. Rodriguez to testify for the defense.
A competent attorney would have had the aiidio tape of the interview ready
for use in trial, for the purpose of of contradicting Yeni Rivas during cross
examination. A competent attorney would had asked Yeni Rivas, " Did you Yeni
Rivas speak to a Mr. Rodriguez and tell him that the State forced you to sign.:
a pre-written statement of event you have no knowledge of; that Lopez never
spoke to you about the Loma Vista case; that the State threatened to take away
your son if you did not cooperate; that HPD officers threatened you with a
tazer when you were pregnant for trying to defend Lopez; and that you are mad
at Lopez ?" If Yeni Rivas answered "No", then competent attorney would play
the audio tape of the interview and/or have her read the transcript of the
interview. Strickland Performance Prong. Reasonable jurist would not had relied
on her testimony for a guilty vote. Not subpeona Mr. Rodriguez and not having
this evidence available is poor performance. Pavel v. Hollins,, 261 F.3d 210
(CA 2 2001).
Mr. Salhab was not prepared to defend Lopez in trial, he simply went
with the flow (as kids would say). He had no proper tactics nor strategy
to defend Lopez. Freeman v. Class, 95 F.3d 639 (CA 8 1996).
Fourth I.A.C.: The defense never onced asked for an.extention. However,
in theory, it would have been wise strategy to move Lopez's trial to the end of
all the trials that Alejandro Garcia and Yeni Rivas were expected to testify
in.
Lopez does not know how many times Garcia and Rivas testified for the State,
but he does know that Alejandro Garcia was a state witness in many of his own
friends causes and trials.. ,.
B

16

By being last to go to trial, a competent attorney would gather Garcia and
Rivas' testimony from all the trials and accusation. Like all liers, a lier canirvoVkeep his/her story straight. So it is logicle to assume that Garcia and Rivas
testimony changed in every trial.
Performance Chart: Through the near decade of pre-trial incarceration at
the Harris County Jail, Lopez had two seperate attorneys: Mr. Fry (Bunker Hill)
and Mr. Salhab (Loma Vista). Through natural observation, Lopez witnessed first
hand the difference between a competent;attorney and ineffective counsel. Please
take a look at the chart below that articulates the performance of both
attorneys.
Attorney Gerald Fry

Attorney Joseph Salhab

• Did not accept the State's investigation
• Sait Private Investigators to investigjate
• Used new exculpatory evidence to exonerate
Iopez in the Bunker Hi-ll Case. Spoke to tine 1
first prosecutor about the rrascatiuct.
(See Appendix H.) Prosecutor quit the D.A. Off.
• Scheduled a day to speak to prosecutor Mr.
Graham, and soigjnt Iopez best interest.
• Filed Motions to dismiss the Bunker Hill
Tndictnenf for denial of speedy trial.
• Visited Iopez at the jail by himself, with
other helping attorneys, with law college
interns, and P.I., for legal purposes sod
friendly purposes.
• Mr. Fry aid his Office worried about Iopez
mental health & Development. Iopez was
housed in M-Seg fircm 2005-20EL2* not because
jfof misbehavior but by the Jail's policy
of housing all Capital Indictments in AdSeg. Mr. Fry spoke up about Iopez's Ai-Seg
housing ,being oppressive. Mr. Fry & his
office motioned for Iopez to get a T.V.
THE TV FAS GRANIED W mOTET. Iopez
first received a colored box TV. then flat
screen became available, Mr. Fry made sure
Iopez got cne. In 2011, Mr. Fly moved that
Iopez be takai out of AD-Seg. In .2012
Iopez was housed in population. Mr. Fty
then moved for Iopez to get his G.E.D.
• Mr. Fry tried to get Iopez a dacent Bond.
• Mr. Fry prepared for a trial by gathering
law Office & College interns.
• Mr. Fty taigjit Iopez on how to assert
his speedy trial rights in the Lam
Vista Case.
• Mr. Fry shared new evidence with Mr.
Salhab, even invited Salhab over to
his Office several times. Salhab
never went.
• Bunker Hill Case was dismissed.

17

•
•
•
•

Accepted the State's investigation
Hesitant to motion for a P.I.
No zeal to discover exculpatory evidence.
Never scheduled a date with prosecutor,
for sogjnt Lopez's best interest.
• Never filed Motions lb Dianiss for denial
of speedy trial. Lopez filed his pro se.
m •
Iferdley visited Iopez at the jail for
legpl purposes.
• Indifferent towards Iopez 6 & 14 amend.,
rigjnts.
• Indifferent towards Lopez's mental
health and Development.
• Failed to prepare for trial.
• Failed to get Iopez a Bond.
• Fhiled to use the addence Mr Fty gave
him to help Iopez.
• Failed to defend Iopez in Trial and as a
result Iopez was found guilty of murder,
fhxgjn crime victim gave exculpatory evidence
that Iopez was not the shooter;
?
• After trial, Mr. Salhab did motion and argue
for Iopez to have bis 9 years of back time
added to his sentence. The State wanted for
Iopez not to have tine 9 years of back tine.
The Court alloted Iopez's 9 years to his
sentence. (Because of Ffericn?)
• Mr. Salhab, apperantly was in bad health.
After trial, Salhab went into a Coma, and later an passed away. Mr. Salhab was not
available to file a affidavit during §11.07
habeas proceedings.

'■V

/
!
!

Therefore, Lopez has established several ineffective assistance of
counsel claims according to, Strickland v. Washington, 466 U.S. 688, 687
(1984).
Wherefore the Court should grant certiorari.
(

(S) STATE'S SUPPRESION OF EXCULPATORY EVIDENCE
The suppresion of evidence by the State is governed by the 14th Ammendment
Brady, and Philips v. Omoske, 673 F.3d 1168 (CA 9 2012). Here, in Lopez's
case, the trial prosecutors lied about co-defendant Alejandro Garcia's plea
bargain.
State witness Alejandro Garcia attracted detectives to him, for the Loma
Vista Murder, in 2005, through the usage of the cell phone that belonged to
victim Guadalupe Sepulveda. Phone records revealed Alejandro Garcia calling and
texting his girlfriend, and calling his home.
Wien Alejandro Garcia was first questioned for the Loma Vista murder, he
accused a fellow student named Jose Luviano as the murderer of Daniel Zammora.
Detectvies, verified that Jose Luviano was incarcerated during the night of the
said murder. Detectives questioned Alejandro for the second time, on the second
Affidavit Alejandro Garcia accused a George Lopez. Detectives, once again,
realized that he was lie'ing to them. In the third interview with Detectives,
after two perjuries defined by State Law, Alejandro Garcia accused petititioner
Efrain Lopez of the murder of Daniel Zammora. Lopez was arrested after the
signing of the third affidavit in October 2005. Lopez denied all accusations
and was released.
The State continued to keep Lopez as the prime suspect for the murder of
Daniel Zammora. Several friends from school notifed Lopez that Detectives spoke
to them about Lopez.
Please take note of Lopez's adolscent mental development. A child guilty
of a hainous crime is unable to hold in the guilt, and under police pressure
will confess to the crime the child committed. On the other hand, a child with
a clear conscience does not brake under any pressure and out of adolscent
zeal will hold his/her integrity,"It was not me!" attitude. With Alejandro
Garcia, knowing he was ,using a stolen cell phone, had stolen property in his
room, when questioned by police; the pressure overwhelmed him and he started
to falsely accuse random people - thinking like a child - hoping his lies will
moverdetectives towards another direction. What is most interesting his, how
and why, did detectives keep entertaining Alejandro Garcia after two perjuries?
In 2005, Lopez had no knowledge that Alejandro Garcia had accused him of
murder. Both Lopez and the Garcia brothers were friends, and Lopez spent his
18

after school hours and weekeneds at the Garcia residence. It was wasDthrough
a discovery motion, later on, when Lopez learned that Alejandro Garcia had
falsey accused him of the Loma Vista murder.
December 2005, She Garciasbrothers (Alejandro, Pedro), Lopez, Israel
Diaz, and more of Alejandro's friends were arrested for several charges.
Detectives found in Alejandro Garcia's room: illegal guns, an illegal
assault rifle, shogun shells, random bullets, gome of Guadalupe Sepulveda's
stolen property, drugs and scales. Plus, cell phone records revealed that
Alejandro was using Sepulveda's stolen cell phone to call and text his girl­
friend and home.
After striking a deal with the State, Alejandto Garcia was allowed to
post bond; his charges were reduced from Capital Murder to Agg., Robbery
(with expected 5 year Deffered); Pedro Garcia's criminal complaint disapeared,
and Alejandro never saw prison time. Alejandro Garcia was expected to testify
in several trials.
Throughout Lopez's trial, the trial prosecutors informed the jury that
Alejandro Garcia pleaded guilty through a P.S.I., for Aggravated Robbery and
was facing 5 to 99 years up to life in prison, and that Alejandro Garcia was
offered nothing in return for his testimoney "which is the truth" said the
prosecutors. However this is not true.
Mr. Salhab questioned Alejandro Garcia on the stand about his plea deal.
Alejandro Garcia spoke of wanting probation. At the time, no one understood,
not counsel, and especially not the jury, that Alejandro Garcia was revealing
his secret arranged plea dea*l of 5 years Deffered. Alejandro called it
"probation", not knowing the technical differences between "Deffered & Probation";
either way, he spoke of wanting probation (meaning: no prison time for his
testimony) with confidence knowing he was going to get 5 years Deffered if he
did everything the State wanted him to do/say.
The State never informed the jury the truth, that it was already arranged
for Alejandro Garcia to be sentenced to 5 years Deffered and not felony probation.
In matters of law, there is a difference between Deffered and Felony Probation.
One leaves a felony conviction on your record upon completion and another one
upon completion removes the felony off your record. Alejandro Garcia was not
facing 5 to 99 years up to life in prison but 5 years Deffered after testifying
against everyone on the State's trial schedule.
The State informed the jury that Alejandro Garcia was offered nothing in
exchange for his testimony. However, the truth is he was offered many things.
He was offered: Bond, reduction of charges, and 5 years Differed. Furthermore,

19

one must ask, What happened to Pedro Garcia, the brother of Alejandro Garcia?
Lopez knows for a fact that Pedro Garcia was involved in the Loma Vista robbery.
So what happened? Pedro Garcia's criminal complaint disapeared. Why wasnt Pedro
prosecuted? This leads anyone to presume and speculate, that £>art of Alejandro
Garcia's deal with the State was for his brother not to face prosecution. Any
reasonable jurist would be of that opinion. The State lied to the jury that
Alejandro received nothing in exchange, for it is clear that he received many
things for his testimony, primarlyyhis brother and his freedom from prison.
Any reasonable jurist would agree that the State did indeed lie to the
jury of Alejandro Garcia plea deal. Reasonable jurist would agree that Alejandro
Garcia received: A Bond, reduction og charges, 5 year Deffered sentence, and
the disapearance of his brothers criminal complaint for the Loma Vista murder.
Reasonable jurist, upon knowing of this un-ethical plea deal by the State,
would not have relied on Alejandro Garcia's testimony of accusing Lopez of
murder but would rely soley on Guadalupe Sepulveda esculpatory testimony,
and aquitt Lopez of Capital Murder.$*.*- App<-*ck\x (l3.
This Claim can also be seen in, Philips v. Ornoski, 673,F.3d 1168 (CA
9 2012). In Philips, the Court dismissed the case because the co-defendant
in thewcase testified falsley, and the State lied to the jury about the
co-defendant's plea agreement for her testimony. The co-defendant went from
capital murder charges to immunity, in echange for her testimony. The Court
ruled, the Supreme Court has accordingly held that the government may not
knowingly suppress evidence that is exculpatory or capable tf impeaching
government wintesses. See Banks v. Dretke, 540 U.S. 668, 691, 124 S.Ct 1256
L.Ed.2d 1166 (2004); Similarly, it has held that the government is obligated
to correct any evidence introduced at trial that it knows to be false,
regardless of whether or not the evidence was solicited by it. See Napue
v. Illinois. 360 U.S. 264, 269, 79 S.Ct 1173, 3 L.Ed.2d'1217 (1959).
Therefore, it is clear, the State did suppress exculpatory evidence of
Alejandro Garcia's pleaddeal.
Wherefore, this Court should grant certiorari.
(6) DENIAL OF DUE PROCESS TO PERJURED TESTIMONY & FALSE TESTIMONY OFFERED
BY THE STATE AT TRIAL
This claim is goverend by the 14th amendment. Banks v. Dtetke, 540 U.S.
668, 691, 124 S.Ct 1256 L.Ed2d 1166 (2004), Mad Napue v. Illinoise, 360 U.S.
264, 269, 79 S.Ct 1173, 3 L.Ed.2d 1217 (1959), "It is established that a
conviction obtained through use of false evidence, known to be such by
representatives of the State, must fall under the fourteenth Amendment." Id at 269.

20

During Lopez's trial the State offered two state-witnesses.^ Alejandro
Garcia and Yeni Rivas, as evidence to support their burden that Lopez murdered
Daniel Zammora.
Detectives found Alejandto Garcia through cell phone of a stolen cell
phone that belong to the victim Guadalupe Sepulveda. State records reveal
that Alejandro Garcia called and texted his girlfriend and his home.
Detectives questioned Alejandro three times,concerning!theciLoma Vista
murder. Alejandro Garcia signed three seperate affidavits, with perjury warnings,
accusing three people of murdering Daniel Zammora. The first person Alejandro
accused was a fellow student named Jose Luvian; he was cleared of any wrong
doing. The second person to be accused was an alleged student who attended
Sharpstown High by the name of George Lopez; Detectives realized, once again,
that Alejandro lied to them. After two perjuries, Detectives continued to
question him. On his third affidavit, declared under penalty of perjury, he
accused petitioner Efrain Lopez in the murder of Daniel Zammora. Lopez was
arrested in October 2005 and released. Lopez denied all accusations.
The State continued to keep Lopez as their prime suspect for the murder
of Daniel Zammora.
Please take note of Alejandro Garcia's behaviour as adolscent. Knowing
that detectives found him by using a stolen cell phone, he was quick to falsely
accuse radom people, perjuringghimself. Commen behaviour in children when caught
misbehaving. Lopez, on the other hand, when interrogated, never accused othere
people of crimes, never confessed to murder, nor did he try to mislead detectives.
In December 2005, Alejandro Garcia, Pedro Garcia, Israel Diaz, Efrain
Lopez, and more of Alejandro Garcia's friends where arrested for random charges.
Alejandro Garcia, after striking a plea deal with the State, was allowed
to;Bond, received reduced charges - from Capital Murder to Aggravated Robbery and Pedro Garcia's criminal complaint disapeared.
Lopez was indicted for Loma Vista seven years after his arrest, and whent
to trial nearly nine years after his arrest for Loma Vista. As part of his
plea aggeement, Alejandro Garcia testified to: Lopez murdering Daniel Zammora
with a black shotgun. The second state witness, Yeni
Lopez confessed to her that he was at the Loma Vista
State-witness, and a eyewitness, plus victim of
Sepulveda testified to: A man, 5'9 feet tall, age 23

Rivas, testified to:
scene.
the crime Guadalupe
murdered Daniel Zammora.

Petitioner Lopez, at the time of the murder was 17 years old, 5'4 feet
tall, and did not own a shotgun.
Alejandro Garcia testimony does not match Guadalupe Sepulveda's testimony,
and Yeni Rivas lied in trial according to her sister Jessica Rivas and a 2008

21

interview with Private Investigator Mr. Rodriguez. ^See Appendix G).
The Petitioner asks the question once again, does Guadalupe Sepulveda's
exculpatory testimony have any value, any weight to jurist of reasons? Eye­
witness Sepulveda is not the criminal in this matter but a victim. Alejandro
Garcia is not a victim but a criminal to this Case, he pleadedguilty to Aggravated
Robbery of Guadalupe Sepulveda. How then can Alejandro Garcia's testimony have
any value or weight to jurist of reason? Furthermore, Alejandro Garcia's
testimony does not match - not even 1% - Sepulveda's testimony. If victim
Guadalupe Sepulveda would have said that he saw a short teenager or even man
shoot Daniel Zammora, then Alejandro Garcia and Sepulveda's testimony would
match. But that is not the truth here. Sepulveda saw a 5'9 foot tall man. Lopez
height is/was 5'4 even up 5'5..If Sepulveda would had said that he saw a Black
shotgun used as the murder weapon, then Sepulveda's and Garcia's testimony
would match. But that is not the truth here. Sepulveda saw a camofluague color
shotgun and that shotgun was found either on Alejandro or one of his other
close friends. Alejandro testified to Lopez using a black shotgun to murder
Daniel Zammora, no black shotgun was found on anyone. In Lopez's case, the
only one speaking the truth is victim Guadalupe Sepulveda. He has no reason
to lie - to cover up facts - to avoid a long prison sentence, he has no reason
to mislead detectives of who murdered Daniel Zammora. Alejandro Garcia, on the
other hand, has all the reasons to lie in the murder of Daniel Zammora. All
physical evidence found on Alejandro Garcia linked him to the murder (the stolen
cell phone, and the identified stolen property) and drugs).
In regards to Yeni Rivas testimony, in the eyes of reasonable jurist
Lopez does not need to continue proving her to be a lier because she confesses
to be a lier in regards to this Case in her interview with Mr. Rodriguez and
she confessed to her very own sister Jessica Rivas that she lied on Lopez.(see

Appendix G.}
The State knew, before hand, that Alejandro Garcia's testimony did not
match the victim's testimony - not even 1% - but still used it in trial. Which
means, that the State allowed, on purpose, false testimony to support their
burden ahdttheory that Lopez (5'4 & 17 years of age) murdered Daniel Zammora
with a black shotgun. It is also easy to presume, that the State knew, or had
some knowledge of Yeni Rivas false testimony from the time when Attorney Gerald
Fry disclosed to the first prosecutor in 2008 of the State's misconduct of
coercing witnesses to sign false statements on Lopez. See Giglie v. United.
States, 405 U.S. 150, 153, (1972); Ventura v. Attorney General, FLA • * 419
F.3d 1269 (CA 11 2005); Besfcte; and Napue. In theses four cases, the State
used
tl

U C

^——

22

i

i i-ii

■——m

used false testimony for a conviction. The Courts ruled that the State cannot
use false evidence against a defendant.
By noww, on this writ, reasonable jurist would agree that Lopez has
shown Alejandro Garcia to be: guilty of perjury, a lier, and testified falsely
for the purpose of securing his brother's freedom and his own; and that Yeni
Rivas also testified falsely • •
The State was not willing to let go of the Loma Vista case like they let
go of the Bunker Hill case. TheJ State rolled the dice by taking Lopez to trial.
Knowing that Mr. Salhab would be inaffective, on purpose using two false
wintesses, and relying on Lbpez's ignorance of the law for a easy conviction.
Maxwell v. Roe, 528 F.3d 486 (CA 9 2010); Napue; Giglio; Ventura; and Ortega v.
Duncan, 333 F.3d 102 (CA 2 2003).
In Ortega, the Court agreed that a state witness lied in trial. On page
109, the Court said, Vfew rules ace more central to an accurate determination
of innocence or gui.lt than the requirement... that one should not be convicted
on false testimony, Sanders v. Sullivan 900 F.2d 601, 607 (2nd Cir. 1990),...
We hold as matter of law that Ortega's conviction is in violation of his due
process rights because without garner's testimony, the jury would probably not
have found Ortega guilty. We therefore grant Ortega's petition." Here, in Lopez's
case, Lopez has shown that Alejandro Garcia and Yeni Rivas testified fasley
at trial. Without Alejandro Garcia and Yeni Rivas testimony, the jury would
not have found Lopez guilty of murdering Daniel Zammora.
Based on the .Giglio Doctrine, Ventura, and Supreme Court ruling on Napue
reasonable jurist would agree that the government must now correct the harm
done to Lopez by allowing him to be found guilty of murder on false testimony.
No reasonable jury would have found Lopez guilty of murder based on Sepulveda's
testimony alone. Se.<- App«.*\A\x (JZ).
Therefore, it is concluded that false testimony was offered at Lopez
trial by the State.
Wherefore, this Court should grant certiorari.

23

OTHER CONSIDERATIONS
The Petitioner understands that this Court considers the importance of
the public saftey...
Petitioner Lopez grew up in a disfunctiona home, poor,aand abused physically
& mentally. During high school, Lopez became rebellious and reckless with his
behavior. By senior year, Lopez was arrested and booked into the Harris County
Jail and has remained incarcerated.
Lopez obviously grew up behind bars. Nearly eight of those years were in
Ad-Seg at the jail (not because of bovactor but out of the indictment brought
against him). The restof his time behind bars have been in general population.
Since Lopez has been incarcerated, he has not communicated with members
of the high school gang he used to associate with. Lopez has renounced all
criminal behakior. While in the Harris County Jail, Lopez earned Ms G.E.D.
While in prison, Lopez has kept away from prison gaggs. Early on, he
enrolled into a Christian College with a Correspondence Prison Program and he
earned a Bachelor's & Master's degree.
Lopez has never been disciplined for a major infraction while in prison.
Lopez was picked by the prior Wynne Unit Chaplain to be a Coordinator for
his religious community at the prison.
At the present moment, Lopez is enrolled at the Wynne Unit Lee College
program, studing Business Management. In late March 2021, Lopez is scheduled
to start his duel degree program with Micro-Computers.
If Lopez has to remain in prison Longer, he has plans of changing his
majprtto Psychology, or in the alternative a}Liberal Arts degree with Philosophy
being the primary subject.
While incarcerated, Lopez has kept in touch with his relatives and his
only son. They visit and communicate with Lopez on the prison phone. Lopez
tries to be a good father to his son.
Lopez has remained hetersexual behind bars, and keeps pen-pal friendships
with femakfriends, who are more than willing to provide a helping hand if
Lopez is ever released.
Petitioner Lopez would like for this honorable Court to know that he is
not a threat to the public safety, nor will be a burden to the public. Lopez
has plans of finding honest employment, start a family, continue with college
(paid with already approved grants), and become a mentor to underprivilaged
youth so that they can be warned about bad company and prison.

24

CONCLUSION
Due to the numerous Due Process Errors',' The Petition For Writ of Certiorari
should be granted.

Respectfully Submitted

Li’

^

......... ..

Efrain Lopez, Petitioner, Pro Se.

/VlAcch

Z&1

'ZOT I

Date

* Farmer v. McBride, 2004 U.S. Dist. LEXIS 29629 (S.D. W.Va 2004), Writ granted
because of numerous Due Process errors.

25

